           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




       SURVIVOR BENEFICIARIES
            ENUMERATED
      AFTER THE WAGE EARNER’S
               DEATH

   May 2006          A-06-05-25136




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   May 23, 2006                                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Survivor Beneficiaries Enumerated After the Wage Earner’s Death (A-06-05-25136)


        OBJECTIVE

        Our objective was to determine the effectiveness of controls over payments to survivor
        beneficiaries enumerated after a wage earner’s death.

        BACKGROUND

        The Social Security Administration (SSA) provides benefits to insured individuals who
        have reached retirement age, survivors' benefits to dependents of insured wage earners
        when the wage earner dies, and disability benefits to disabled wage earners and their
        families. Children, widows, spouses, and parents entitled to benefits on the Social
        Security record of a deceased wage earner are referred to as survivor beneficiaries.
        Each survivor beneficiary must have an assigned Social Security number (SSN) to
        receive benefits. If a survivor claimant does not have an SSN, an Application for a
        Social Security Card must be completed and subjected to the same process and
        evidence requirements as any other SSN card request. The primary wage earner's
        SSN is used to track the survivor beneficiary's payments.

        In a recent Dallas region fraud case, an experienced SSA employee enumerated
        nonexistent children and used them to apply for survivor benefits on the records of
        recently deceased wage earners. The SSA employee arranged to have these benefits
        direct deposited into bank accounts she controlled. During the fraud investigation, the
        employee stated that weaknesses in SSA processes and procedures made it easy to
        commit these crimes. In response to this case, we identified 40,345 survivor claims
        (nation-wide) since January 1996 that were filed on behalf of 39,995 survivor
        beneficiaries enumerated after the primary wage earner’s death. Our analysis identified
        15,115 claims for foreign-born and 25,230 claims for domestic-born beneficiaries. 1 SSA
        records indicated 20,274 claims for domestic beneficiaries born after the primary wage
        earner’s death. We analyzed a sample of 160 enumerations related to the 40,345

        1
         Foreign beneficiaries are a large part of the population because SSA will not assign them an SSN until
        needed for claims purposes.
Page 2 – The Commissioner


claims to determine if SSA adequately documented the enumerations. In addition, we
selected 483 records for detailed review based on their similarity to characteristics of
the Dallas Region fraud case. See Appendix B for the Scope and Methodology of our
review.


                   Survivor Claims for Beneficiaries
               Enumerated After the Wage Earner's Death




                                     Domestic                                    Born After
                     Foreign                                                   Wage Earner's
                     15,115           25,230                                   Death -- 20,274



                                                      Born Before
                                                     Wage Earner's
                                                     Death -- 4,956



To ensure the validity of survivor claims, SSA established policies and procedures that
detail the types of acceptable proof that must be submitted before SSA will enumerate
an individual or approve a survivor benefit claim. SSA established additional policies for
situations where a survivor benefit claim is filed on behalf of a child born after the
father’s death. For example, SSA policies state field offices should question the
legitimate status of children born more than 287 days after the father’s death. 2 SSA
also established specific dependency requirements for children adopted by surviving
spouses. 3 In addition, SSA requires that all survivor claims on behalf of children
conceived through in vitro fertilization after the death of the father be reviewed by the
appropriate Regional Chief Counsel. 4




2
    SSA, Program Operations Manual System (POMS), GN 00306.020(B)(5), Presumption of Legitimacy.
3
    SSA, POMS, GN 00306.145, Child Legally Adopted by NH’s Surviving Spouse.
4
    SSA, POMS, GN 00306.001(C)(1)(c), Determining Status as Child.
Page 3 – The Commissioner


RESULTS OF REVIEW
Generally, SSA policies and procedures provided for effective control over payments to
survivor beneficiaries enumerated after the wage earner’s death. Our review of
enumeration documentation, representative payee information, beneficiary address, and
electronic deposit information associated with these claims did not identify further
indications of a fraud scheme similar to the Dallas Region case. However, our tests
revealed SSA employees did not follow procedures that governed adjudication of
survivor claims for children born more than 287 days after the wage earner’s death.
Consequently, SSA could pay more than $4.6 million in questionable benefits.

CHILDREN BORN MORE THAN 287 DAYS AFTER A WAGE EARNER’S DEATH

According to SSA policy, field offices should question the legitimate status of children
born more than 287 days after the father’s death. Absent established legal precedent,
these claims should be forwarded to the applicable Regional Chief Counsel for review. 5

We identified 36 children whose records suggest they were born more than 287 days
after their father’s death who received survivor benefits on the deceased father's record.
In 10 cases, we either (1) obtained documentation to indicate the Regional Chief
Counsel had reviewed and provided guidance on the claims, or (2) determined incorrect
dates of death were recorded on the wage earner’s record. In the remaining 26 cases,
field office staff improperly adjudicated the benefit claims.

                   36 Survivor Claims in Current Pay Status for Children
                  Born More than 287 Days After the Wage Earner's Death



                                     In Vitro Fertilization
                                     Case Not Reviewed
                                     by Region General
                                         Counsel
                                       (14 Cases)
              Not Adequately                                              Adequately
              Supported –        Long Gestation                          Supported –
               26 Cases          Cases with No                            10 Cases
                                  Evidence of
                                     Review
                                    (8 Cases)



                                             Unresolved Dependency Not
                                             Date of Death Established
                                             Discrepancies  (2 Cases)
                                              (2 Cases)




5
    SSA, POMS, GN 00306.020(B)(5), Presumption of Legitimacy.
Page 4 – The Commissioner


A summary of the 26 cases is provided below.

•     In 14 cases, field offices did not obtain applicable Regional General Counsel
      guidance before authorizing claims that involved children conceived by in vitro
      fertilization after the father’s death. Children conceived by artificial means after a
      wage earner’s death cannot be entitled under the Federal law provisions of the
      Social Security Act. These children can only be entitled if they have inheritance
      rights under applicable State law. SSA policy states these legal determinations can
      only be made by the Regional General Counsel. 6 We found no evidence to indicate
      the field offices obtained these required legal determinations.

•     In two cases, SSA improperly approved survivor claims for adopted children who
      clearly did not meet established dependency requirements. To meet these
      requirements, SSA policy states adopted children must have lived with or received
      support from the wage earner. 7 However, in both cases, surviving spouses adopted
      children (in one case, a grandchild) who were not conceived until after the wage
      earner’s death. In both instances, retirement and survivor’s insurance specialists in
      applicable regional offices agreed these children were not entitled to benefits and
      field office staff should not have approved these claims.

•     In eight cases, field office staff did not obtain applicable Regional Chief Counsel
      guidance on claims that involved children born after unusually long gestation
      periods. These long gestation periods raised questions as to whether the wage
      earner could have actually fathered the child before his death.

•     In two cases, SSA approved survivor claims but did not resolve discrepancies
      between information noted in the survivor claim and data that appeared elsewhere in
      SSA’s records. These discrepancies should have raised doubts as to whether the
      deceased wage earners could have fathered these children. For example, SSA
      pays $493 per month in survivor benefits to a child born in March 1997. Dates of
      death recorded in both the Master Beneficiary Record and Modernized Claims
      System indicated the deceased wage earner could not have fathered the child
      because he died in January 1996—more than 13 months before the child’s birth.
      However, field office staff approved the claim, apparently basing this decision on a
      nonspecific “9/XX/96” date of death recorded on the father’s Numident record.

We contacted Center for Program Support retirement and survivor insurance staff in
SSA’s Atlanta, Boston, Chicago, Dallas, Denver, Kansas City, Philadelphia, New York,
and San Francisco regions regarding the cases discussed above. In each case, we
were informed that no documentation existed to indicate the Region Chief Counsel
reviewed or provided guidance on these claims.



6
    SSA, POMS, GN 00306.001(C)(1)(c), Determining Status as Child.
7
    SSA, POMS, GN 00306.145(C)(1)(b), Child Legally Adopted by NH’s Surviving Spouse.
Page 5 – The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA generally has adequate controls in place to safeguard payments for survivor
beneficiaries enumerated after the wage earner’s death. Our review of enumeration
documentation, representative payee information, beneficiary address, and electronic
deposit information associated with these claims did not identify further indications of a
fraud scheme similar to the Dallas Region case. However, SSA did not properly
adjudicate survivor claims for children born more than 287 days after the death of the
primary numberholder (father). These beneficiaries will receive more than $4.6 million
in questionable benefits on these claims.

We recommend that SSA:

1. Review the claims associated with the 26 children born more than 287 days after the
   wage earner's death and refer any fraudulent cases to the Office of Investigations.

2. Issue a reminder to field office staff to follow procedures for establishing relationship
   and dependency by obtaining applicable Regional Counsel’s legal opinion on
   survivor benefit claims involving children born more than 287 days after the wage
   earner’s death.

AGENCY COMMENTS
SSA agreed with our recommendations and provided a technical comment that we
incorporated into the final report. See Appendix C for the text of SSA’s comments.




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Survivor Benefits for Children Born More than 287 Days After Death of
             the Father

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                      Appendix A

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to the Modernized Enumeration System and the Modernized Claims System.

•   Reviewed prior Office of the Inspector General and Government Accountability
    Office reports pertaining to enumeration.

•   Discussed Dallas region fraud case with the Office of Investigations and reviewed
    details of the case.

•   Identified 40,345 survivor benefit claims filed nation-wide on behalf of 39,995
    survivor beneficiaries where the primary wage earner had a date of death on the
    Master Beneficiary Record that occurred on or after January 1, 1996, and the
    survivor beneficiary was enumerated after the wage earner’s death.

•   Requested SSA’s Office of Central Operations, Center for Material Resources
    provide copies of available SSA Form SS-5, Application for a Social Security Card,
    supporting 160 randomly selected enumerations associated with the 40,345 survivor
    benefit claims. SSA was able to provide all but five of the requested forms. We
    reviewed each available form and determined SSA documented acceptable
    evidence of identification and confirmed the forms were signed by both the applicant
    and the SSA employee processing the request.

•   Tested SSA data to determine whether fraud indicators similar to the Dallas Region
    case appeared elsewhere in the population of survivor benefit claims paid to survivor
    beneficiaries enumerated after the death of the primary wage earner. Specifically,
    we

    ¾ Analyzed all 292 records where the same Post Office box number was used by
      three or more beneficiaries (this group included three post office boxes used by
      28 fictitious beneficiaries enumerated as part of the Dallas Region fraud).

    ¾ Analyzed 191 additional records based on the following:

       o 36 records where SSA was currently paying survivor benefits to children born
         more than 287 days after the wage earner’s death;

       o 5 records where a Prisoner Update Processing System record appeared on
         the wage earner’s Master Beneficiary Record;



                                           A-1
       o 99 records where 6 or more beneficiaries had benefits deposited into the
         same bank account (this group included two accounts used by 18 fictitious
         beneficiaries enumerated as part of the Dallas Region fraud case); and

       o 51 records where SSA assigned representative payees to receive the benefit
         payments on behalf of beneficiaries of 3 or more deceased wage earners
         (this group included two payees representing nine fictitious beneficiaries
         enumerated as part of the Dallas Region fraud case).

•   Retrieved and reviewed applicable Master Beneficiary Records, Numident Records,
    and Modernized Claim System evidence screens for selected claims.

We conducted our audit between June 2005 and January 2006 at SSA’s Regional
Office in Dallas, Texas. We did not test the general or application controls of SSA
systems that generated electronic data used for this audit. Instead, we traced selected
transactions to source documents and performed other validation tests. As a result, we
found the data to be sufficiently reliable to meet our audit objectives. The entity audited
was the Office of the Deputy Commissioner for Operations. We conducted this audit in
accordance with generally accepted government auditing standards.




                                            A-2
                                                                                         Appendix B
Survivor Benefits for Children Born More than
287 Days After Death of the Father
                                                                    Benefits
                                                Date     Monthly      Paid      Potential
       Father’s         Child’s    Difference  Claim     Benefit    Through      Future
    Date of Death Date of Birth     in Days Approved Amount          Dec 05    Payments 1
                                IN VITRO FERTILIZATION CASES
  1     5/23/00        12/15/01        571    04/29/02     $1,375      $63,816     $230,229
  2     5/23/00        12/15/01        571    04/29/02     $1,375      $63,816     $230,229
  3      7/5/98        5/25/01       1,055    03/05/03     $1,128      $52,368     $181,306
  4    12/18/02        11/3/03         320    01/15/04       $722      $18,476     $137,222
  5     2/19/00        12/30/03      1,410    03/01/04       $826      $19,560     $158,536
  6      3/9/03        11/3/04         605    12/27/04     $1,023      $14,268     $206,739
  7      3/9/03        11/3/04         605    12/27/04     $1,023      $14,268     $206,739
  8      3/9/03        11/3/04         605    12/27/04     $1,023      $14,268     $206,739
  9    12/19/99         6/6/02         900    08/26/02     $1,074      $43,788     $185,938
 10     8/16/96         8/6/97         355    06/28/99      $520 2    $43,896²     $53,612²
 11      5/5/96        05/14/99      1,104    10/27/99       $800      $50,375     $109,071
 12      5/5/96        05/14/99      1,104    10/27/99       $800      $50,375     $109,071
 13     3/29/01        10/6/02         556    10/25/02    $2,000²     $75,228²    $330,276²
 14     4/14/02        12/4/04         965    03/04/05     $1,059      $12,708     $215,094
                                        ADOPTION CASES
  1     4/11/00        11/14/01        582    07/02/04       $516      $10,216      $85,873
  2    10/14/97        10/10/98        361    10/05/01       $738      $40,076      $95,377
           LONG GESTATION CASES NOT ADEQUATELY SUPPORTED OR REVIEWED
  1      5/1/00         3/4/01         307    06/28/01       $629      $28,440      $99,405
  2    12/28/97        10/12/98        288    08/15/02       $466      $15,231      $60,255
  3    12/27/02        10/27/03        304    12/19/03    $1,252²     $31,600²    $222,641²
  4     1/28/01        11/29/01        305    02/04/04       $357      $10,488      $59,588
  5     6/30/97        5/18/98         322    03/12/99       $301      $24,656      $37,465
  6    10/12/97         8/8/98         300    11/16/98       $714      $58,404      $90,796
  7    11/17/01        9/21/02         308    04/23/03       $308      $10,010      $54,407
  8    11/23/03        9/28/04         310    05/11/05     $1,210      $30,976     $243,098
                  CASES WITH UNRESOLVED DATE OF DEATH DISCREPANCIES
  1    01/31/96 3       3/2/97         396    03/11/97       $493      $47,412      $54,200
  2    12/10/97 4       8/1/03       2,060    05/07/05       $866      $ 7,794     $161,914
                                                                     $852,513    $3,825,820
Total Benefits Paid Through December 2005 Plus Potential Future Payments         $4,678,333




1
    Current benefits paid until child turns age 18. Surviving spouse payments cease when child is age 16.
2
    Includes payments to surviving spouse entitled solely as a result of caring for this child.
3
  The father’s Master Beneficiary Record shows a 01/1996 date of death; however, the father’s Numident
record shows a “09/XX/96” date of death.
4
 The father’s MBR shows a 12/10/1997 date of death; however, the father’s Numident records show a
04/12/05 date of death.
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:      May 05, 2006                                                     Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye        /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Survivor Beneficiaries Enumerated
            After the Wage Earner's Death" (A-06-05-25136)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
           54636.

           Attachment:
           SSA Response




                                                     C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "SURVIVOR BENEFICIARIES ENUMERATED AFTER THE WAGE
EARNER'S DEATH" (A-06-05-25136)


Thank you for the opportunity to review and comment on the draft report. The Social
Security Administration (SSA) is committed to paying all beneficiaries correctly and
documenting the file to support the decision. Documentation policy is in place and we
plan to communicate with our field offices (FO) to be especially aware of these survivor
claims where a child was born more than 287 days after the death of the wage earner.
Our responses to the specific recommendations are provided below.

Recommendation 1

SSA should review the claims associated with the 26 children born more than 287 days
after the wage earner's death and refer any fraudulent cases to the Office of
Investigations.

Response

We agree. We have a list of the cases and will determine what actions need to be
taken. Fraudulent cases will be referred to OIG.

Recommendation 2

SSA should issue a reminder to field office staff to follow procedures for establishing
dependency and obtaining applicable Regional Counsel’s legal opinion on survivor
benefit claims involving children born more than 287 days after the wage earner’s
death.

Response

We agree. We will remind FO employees to be more aware of these survivor claims
and will provide additional guidance as needed.




                                            C-2
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager (214) 767-6620

Staff Acknowledgments
In addition to those named above:

   Joshua Campos, Auditor-in-Charge


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-05-25136.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
